Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing ServicesGrant to the Tarrant County Sheriff's Department, Tarrant County, Texas
GR-80-00-015August 1, 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of a grant awarded by the Office of Community Oriented Policing Services to the Tarrant County Sheriff's Department.  The purpose of the grant is to enhance community policing.  The Tarrant County Sheriff's Department was awarded a total of $225,000 to hire three full-time sworn officers to enhance community policing.

We reviewed the compliance of the Tarrant County Sheriff's Department with seven essential grant conditions.  Generally, we found that the grantee met the requirements of the grant with regard to budgeting for officers, hiring practices, local matching funds, entitlement to reimbursement, officer retention, community policing efforts, and reporting.  We found two weaknesses that we do not consider to be material.

All items are discussed in detail in the Findings and Recommendations section of with their comments on the draft report.  Our audit objectives, scope, and methodology appear in Appendix I.